       DOD PAYROLL WITHHOLDING DATA FOR FY 2000


Report No. D-2001-109                          April 27, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CSRS                  Civil Service Retirement System
DFAS                  Defense Finance and Accounting Service
FERS                  Federal Employees Retirement System
OPM                   Office of Personnel Management
RITS                  Retirement Insurance and Transfer System
                       Office of the Inspector General, DoD
Report No. D-2001-109                                                   April 27, 2001
  (Project No. D2000FH-0130.000)

                 DoD Payroll Withholding Data for FY 2000

                                   Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare consolidated financial statements. This
audit supports our audit of the FY 2000 DoD Agency-Wide Financial Statements.
Office of Management and Budget Bulletin No. 01-02, October 16, 2000, requires us to
review the retirement, health, and life insurance withholdings and agency contributions
during the course of conducting audits and specifies the procedures to apply. The DoD
Financial Management Regulation prescribes the requirements of the Defense Finance
and Accounting Service (DFAS) payroll accounting system. Specifically, the DFAS
payroll accounting system is required to have the ability to query historical data, to
provide audit trails, to provide management reports on an as-needed basis, and to
support management reporting requirements. DoD has 12 agency payroll offices. The
12 payroll offices remitted more than $2 billion to the Office of Personnel Management
for FY 2000 in retirement, health, and life insurance withholdings and agency
contributions for more than 690,000 DoD civilian employees with a total annual payroll
of $37.9 billion. The audit focused on 8 payroll offices that were responsible for
paying more than 30,000 employees each. This report is the first of a series of reports
on payroll withholding for FY 2000. We will report on the results of an expanded
audit sample in a subsequent audit report.

Objectives. Our objective was to determine whether the retirement, health, and life
insurance withholdings and employee data submitted by DoD to the Office of Personnel
Management for FY 2000 were accurate and supported. We also assessed management
controls and compliance with laws, regulations, and procedures relative to payroll
withholding data submitted by DoD.

Results. The DFAS and DoD personnel offices did not have adequate controls to
support the accuracy of the payroll amounts withheld and remitted to the Office of
Personnel Management.

For the three payroll periods tested, the $247.5 million payroll withholding amount
DFAS reported to the Office of Personnel Management exceeded the DFAS database
by $2.7 million. The overall difference was 1.09 percent. Although this is a small
percentage difference, it represents a significantly higher error rate than the
$0.3 million, or 0.13 percent overall that we identified for FY 1999. As a result,
DFAS could not assure the accuracy of the DoD payroll withholding data transferred to
the Office of Personnel Management. See Appendix A for details on the review of the
management control program.

Summary of Recommendations. We recommend that the Director, DFAS, retain
records as required by the DoD Financial Management Regulation to have an ability to
query historical data, and to be able to generate as-needed reports to ensure the
system's integrity. We recommend developing detailed accounting records, including
software, to extract data to support the amounts reported to the Office of Personnel
Management, and also retaining a separate exact electronic copy of the detailed data
summarized into those reports. We recommend development of a system that maintains
the support and justification for all payroll adjustments, including effects on payroll
withholding reports, as well as providing reconciliation to the differences we noted in
our FY 1999 and FY 2000 reports. We recommend that DFAS provide a reconciliation
of the differences between what it reported to the Office of Personnel Management and
the detail support provided to us.

Management Comments. The Director, Military and Civilian Pay Services, DFAS,
nonconcurred with all three recommendations and stated that the Defense Civilian Pay
System currently maintains individual data items in support of the payroll withholding
reports to the Office of Personnel Management for 26 pay periods. After 26 pay
periods, DFAS maintains the data on microfiche at the St. Louis National Personnel
Records Center. The Director, Military and Civilian Pay Services, DFAS, also stated
that initial data provided by the DFAS was inaccurate because of miscommunication
and misunderstanding of the requirements. The Director, Military and Civilian Pay
Services, DFAS, also stated that the Defense Civilian Pay System currently provides
audit trail information, which identifies the source of the adjustment and includes the
dollar value and date of the adjustment. See the Finding and Management Comments
sections in this report for details.

Audit Response. The comments from DFAS were not responsive. DFAS has not
complied with the DoD Financial Management Regulation to maintain a capability to
query historical data. It also has not been able to provide accurate and timely detail to
support all payroll withholding reports to the Office of Personnel Management since
1999. Based on management comments, we revised the recommendation to develop or
modify payroll systems to be in accordance with the DoD Financial Management
Regulation. We revised the recommendation to develop an extraction query to add that
DFAS also retain an exact electronic copy of the data summarized for reporting. We
revised the recommendation to support and justify adjustments to payroll records to
provide DFAS the opportunity to deliver an accurate database extraction that supports
the summary amounts reported to the Office of Personnel Management for FY 1999
and FY 2000 because management responded that they have an audit trail to perform
the task. We request that DFAS provide additional comments on the revised
recommendations by June 27, 2001.




                                            ii
Table of Contents

Executive Summary                                                i

Introduction
     Background                                                  1
     Objectives                                                  1

Finding
     Accuracy and Reliability of DoD Payroll Withholding Data    2


Appendixes
     A. Audit Process
         Scope                                                  10
         Methodology                                            11
         Management Control Program Review                      11
         Prior Coverage                                         12
     B. Report Distribution                                     13

Management Comments
     Defense Finance and Accounting Service                     15
Background
     Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
     Act of 1990,” November 15, 1990, requires Federal organizations to prepare
     annual audited financial statements. The Chief Financial Officers Act also
     requires the Inspectors General to audit all financial statements prepared under
     its guidelines. The Chief Financial Officers Act, as amended by Public
     Law 103-356, the “Federal Financial Management Act of 1994,” October 13,
     1994, has required DoD and other Government agencies to prepare agency-wide
     financial statements since FY 1996.

     Audits of Federal Financial Statements. Office of Management and Budget
     Bulletin No. 01-02, “Audits of Federal Financial Statements,” October 16,
     2000, (the Bulletin) establishes responsibilities and standards for audits of
     Federal financial statements. Appendix I-1 of the Bulletin outlines agreed-upon
     procedures to be applied separately for each agency payroll office that services
     civilian employees during the year. The period subject to the agreed-upon
     procedures is for the 12 months ending September 30th of each year. On
     October 30, 2000, we submitted a separate memorandum report on the
     application of the agreed-upon procedures to the Inspector General of the Office
     of Personnel Management (OPM). This report identifies significant issues that
     were outside the reportable criteria of the agreed-upon procedures.

     Payroll Responsibilities. The Defense Finance and Accounting Service
     (DFAS) provides payroll services to DoD, including calculation of gross pay,
     withholding, and reporting the amounts withheld to OPM. DFAS reports more
     than $2 billion in withholding to OPM annually for more than 690,000 DoD
     civilian employees included in the total annual civilian payroll of approximately
     $37.9 billion. DoD civilian personnel offices and regional centers are
     responsible for retaining the documentation that supports all DoD civilian
     personnel withholding elections and gross pay amounts.

Objectives
     The overall audit objective was to determine whether the retirement, health
     benefits, and life insurance withholdings and employee data that DoD submitted
     to OPM for FY2000 were accurate and supported. Appendix I-1 of the Office
     of Management and Budget Bulletin No. 01-02 specifies the procedures that we
     applied to meet the objective. We also assessed management controls and
     compliance with laws, regulations, and procedures relative to payroll
     withholding data that DoD submitted. Appendix A includes a discussion of
     scope, methodology, the management control program review, and prior audit
     coverage.




                                         1
            Accuracy and Reliability of DoD Payroll
            Withholding Data
            DFAS could not support the amount of DoD payroll withholding
            reported to OPM. Based on database tests for three payroll periods, the
            error rate for FY 2000 increased to 1.09 percent ($2.7 million error out
            of $247.5 million reported to OPM). The FY 2000 error rate of
            1.09 percent compares to an error rate of 0.13 percent ($0.3 million
            error out of $230.9 million reported to OPM) in FY 1999. DFAS could
            not support the amounts reported to OPM because DFAS had a database
            that could be retroactively adjusted, and DFAS had not developed a
            query to accurately extract and archive the data reported. As a result,
            the payroll withholding amounts DoD reported to OPM are not accurate
            or reliable for financial reporting purposes.

Electronic Files
     DFAS maintained and directly extracted data from a database known as the
     payroll history file. The database history retains data for 26 pay periods after
     the end of the pay period. However, the database is subject to retroactive
     processing and other changes. Because DFAS does not maintain exact payroll
     records to support amounts reported to OPM, it must task its computer staff to
     develop extraction routines to perform this function.

     DoD Financial Management Regulation. DoD Regulation 7000.14-R, the
     DoD Financial Management Regulation, January 1998, and revisions (the
     Regulation) requires the DFAS payroll accounting system to have the ability to
     query historical data, to provide audit trails, to provide management reports on
     an as needed basis, and to support management reporting requirements. The
     Regulation, volume 8, chapter 1, August 1999, paragraph 010201.B.8. and 9.,
     requires the payroll accounting system to be able to query current and historical
     data, and to provide an audit trail that permits the tracing of transactions through
     the system. The Regulation, volume 8, chapter 9, August 1999, paragraph
     090201 requires the payroll accounting system to be able to generate reports on
     an as-needed basis or by producing reports to meet special requirements to test
     the integrity of the system. The Regulation, volume 13, chapter 8, paragraph
     080102.D.1. and 3., January 1998, requires the payroll accounting system to
     support management purposes including internal and external reporting
     requirements.

     Audit Trails and Adjustments. The Regulation, volume 6A, chapter 2,
     “Departmental Financial Reports Roles and Responsibilities,” February 1996,
     assigns departmental financial reporting roles and responsibilities. The
     Regulation, volume 6, chapter 2, January 1998, (paragraph 020203, “Audit
     Trails”) requires DFAS to verify that a complete and documented audit trail is
     maintained to support the reports it prepares. Further, the audit trail should
     include verification that the numbers, types, and dollar amounts of transactions
     received from customers, as well as those generated by DFAS, are processed

                                          2
timely and entered accurately into the finance and accounting systems. In
addition, all transactions, with an effective date of the current reporting period,
are included in the data for that reporting period. The Regulation, volume 6,
chapter 2, also states that DFAS must support adequately and justify in writing
any adjustment to the official accounting records, and provide an audit trail to
the source transactions that required the adjustment. For adjustments, the
documentation must include the rationale and justification for the adjustment,
dollar amounts proposed for adjustment, and the date of the adjustment. The
Regulation, volume 8, chapter 1, “Civilian Pay Policy and Procedures,” August
1999, prescribes objectives and related requirements for DoD civilian employee
pay operations and systems. DoD payroll operations and systems must also
interface with the general ledger and personnel functions, with provisions for
reconciling common data elements in separate systems to one another. Audit
trails also are required to permit the tracing of transactions through the payroll
system.

Database Transfer and Footing. For this audit, DFAS extracted payroll data
files from the Defense Civilian Pay System payroll databases and sent it by an
electronic file transfer procedure. We added the 24 payroll data files (8 payroll
offices with more than 30,000 employees each for 3 pay periods) with more
than $3.33 billion in total pay (approximately $1.1 billion per 2-week pay
period) and more than 600,000 employees in each payroll period. We also
added withholding amounts for life insurance, health insurance, Civil Service
Retirement System (CSRS), and Federal Employees Retirement System (FERS).

Comparison of Database to Footings. We traced the employee withholding
totals to the related amounts shown on the Retirement Insurance and Transfer
System (RITS) submission. As listed in the table below, the payroll data file
totals did not equal the amounts reported to OPM. DFAS was unable to provide
us the exact detailed information that supports the amounts it previously
reported to OPM because the DFAS developed a query that could not provide
all the detail necessary to match the amounts. The amounts withheld for life
insurance, health insurance, CSRS, and FERS were usually less than the
withholding amounts reported to OPM in the RITS submission data. The total
difference and percentage difference are shown in the table.




                                     3
        RITS Data Submissions Exceeded Payroll Data Files
                   Reported       Total of       Total of
Type of             to OPM      DFAS Data      Differences    Percent
Withholding        (millions)    (millions)     (millions)   Difference
Life Insurance     $ 30.20       $ 29.86        $ 0.34          1.13
Health Insurance      83.00         82.20           0.80        0.96
CSRS                114.30        112.93            1.37        1.19
FERS                  20.00         19.79           0.21        1.05

Total              $ 247.50      $ 244.78        $ 2.72         1.09




The total withholding that DFAS reported to OPM for the three payrolls tested
in FY 2000 was $247.5 million. The amounts reported to OPM exceeded the
totals of the database that DFAS provided by $2.7 million, or 1.09 percent.
This was a significant increase in the error rate from the FY 1999 payroll data.
The total withholding reported to OPM for the three payrolls tested in FY 1999
was $230.9 million. The amounts reported to OPM in FY 1999 were less than
the databases by $0.3 million, or 0.13 percent. We originally reported the need
for extraction software in Inspector General, DoD, Report No. D-2000-156,
“DoD Payroll Withholding Data for FY 1999,” June 29, 2000. However,
because of the increased error rate between FY 2000 and FY 1999 and the need
to accurately report payroll data to OPM, we consider the differences in the
amounts to be a material management control weakness.
Retroactive Adjustments and Extracting Data. The differences occurred
because DFAS maintained a database that could be retroactively adjusted, and
DFAS did not accurately extract data that was in its database. Specific
examples of adjustments would be for pay increases and changes in employee
deductions for health or life insurance. Using its current extraction routines,
DFAS was unable to provide details concerning differences between the official
personnel file and amounts reported by DFAS. DFAS needs to develop the
information system capability to support and justify adjustments to payroll
records, including dollar amounts, and dates of the adjustments. DFAS also
needs to provide an audit trail to the source transactions that generated the
adjustment. Even small discrepancies reduce the reliability, accuracy, and
verifiability of personal payroll data of individuals transmitted to OPM.

DFAS can improve the capability to provide exact data support for the amounts
reported to OPM by excluding retroactive adjustments and other changes. Also,
DFAS explained that it did not include the payroll files of inactive employees
and employees with no gross pay in response to our data request. DFAS was

                                    4
    unable to provide us with the details for inactive employees or employees with
    no gross pay because its developed program was inadequate to extract the
    amounts from its database. We discussed alternative electronic methods, and
    DFAS personnel are investigating the possibility of developing an improved
    program for required audits in the future. After DFAS develops the program, it
    should total the data it extracted and compare the totals with the amounts it
    previously reported to OPM to test the accuracy.



Conclusion
    DFAS maintains a payroll history database for 26 pay periods that is subject to
    retroactive adjustment. This results in a situation in which the payroll
    withholdings and the amounts reported to OPM cannot be reconciled. DFAS
    needs an ability to query historical data to test payroll and withholding amounts
    for each payroll period. In addition, DFAS needs to record all adjustments
    made to payroll records, including dollar amounts and dates of the adjustments,
    and, DFAS needs to provide an audit trail to the source transactions that
    required adjustment. Further, DFAS needs to develop a data query capable of
    extracting details in electronic payroll data previously summarized and
    transmitted to OPM for withholding payments.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments, we revised
    Recommendation 1. to specifically cite the DoD Regulation 7000.14-R, the
    DoD Financial Management Regulation, May 1993 with changes through
    April 2001, and we added a section that requires management to have the ability
    to query historical data to test the payroll system integrity. We revised
    Recommendation 2. to include an electronic copy of the summarized data
    reported. We also revised Recommendation 3. to include a statement that the
    Defense Finance and Accounting Service provide a reconciliation for the
    differences noted in this report and a prior IG, DoD, report.

    We recommend that the Director, Defense Finance and Accounting Service:

    1. Develop or modify payroll systems to maintain the data summarized for
    reports to Office of Personnel Management consistent with DoD Regulation
    7000.14-R, the DoD Financial Management Regulation, May 1993 with
    changes through April 2001, that would allow for the capability to query
    historical data.

    Management Comments. The Director, Military and Civilian Pay Services,
    Defense Finance and Accounting Service, nonconcurred with the draft report
    recommendation, stating that the Defense Civilian Pay System currently
    maintains individual data items in support of the summarized reports to the


                                        5
Office of Personnel Management as required by the National Archives and
Record Administration, General Schedule 2. Employer contribution and
employee deduction data are maintained on-line at the employee level for 26 pay
periods. The data are available for on-line viewing and are retrievable for audit
purposes through an ad hoc query process. After 26 pay periods, the Master
Pay, Leave and Time history data are stored on microfiche which are sent
quarterly to the National Personnel Records Center, Civilian Records Center,
St. Louis, MO.

Audit Response. The Defense Finance and Accounting Service comments were
not responsive. Because the Defense Finance and Accounting Service allows
the database to lapse after 26 pay periods, it is not following the requirements of
the DoD Regulation 7000.14-R, the DoD Financial Management Regulation,
volume 8, chapter 1, revised August 1999, for civilian payroll retention. The
Regulation requires the payroll system to have the capability to query current
and historical data, and have an audit trail that permits tracing of transactions.
The Regulation, volume 8, chapter 9, August 1999, also requires the payroll
system to be able to generate as-needed reports for management to ensure the
system's integrity, such as summaries provided to the Office of Personnel
Management. The loss of the database after 26 pay periods significantly limits
the opportunity for the Defense Finance and Accounting Service management to
query civilian employee payroll data at a macro and micro level, which is
necessary in order to perform the Office of Personnel Management audit, and
accomplish other management inquires affecting the system. Retrieval of
microfiche archived data at the records center on a regular basis would be
impractical, costly, and not permit Defense Finance and Accounting Service
management the ability to manage the database. We request that the Director,
Defense Finance and Accounting Service, comment on this revised final report
recommendation.

2. Develop an extraction query capable of extracting exact details in
electronic payroll data summarized and transmitted to Office of Personnel
Management for withholding payments, and also retain a separate exact
electonic copy of the data summarized into those summary reports.

Management Comments. The Director, Military and Civilian Pay Services,
Defense Finance and Accounting Service nonconcurred and stated that the initial
data it provided were incomplete or inaccurate in some instances because of
miscommunication or misunderstanding of the requirements. A subsequent file
provided to support the reporting to the Office of Personnel Management
contained complete data and omitted nonpertinent data. If the subsequent file
had been used to complete the audit, the differences between the amounts
reported to Office of Personnel Management and the amounts supported from
the database would have been significantly smaller.

Audit Response. The Defense Finance and Accounting Service provides
summary payroll withholding reports to the Office of Personnel Management for
the elements of retirement, health insurance, and life insurance, based on its
detail supporting records. The data used to support the summary report sent to
the Office of Personnel Management continued to change. The changes in the
database need to be eliminated when a query is activated later. We performed
                                     6
the Office of Management and Budget agreed-upon procedures for payroll
withholding and requested that the Defense Finance and Accounting Service
provide an electronic copy of the database that it used to prepare the summary
withholding reports to the Office of Personnel Management. Because the
Defense Finance and Accounting Service has a database that is constantly
changing, they had difficulty extracting the detail used to support the previously
reported summaries to the Office of Personnel Management. The Defense
Finance and Accounting Service has been unable to provide us with the detailed
information that we could audit to arrive at the same totals it reported in
summary to the Office of Personnel Management. We have requested this same
detailed information for two concurrent years and the Defense Finance and
Accounting Service has been unable to provide it.

The Defense Finance and Accounting Service’s explanation that
misunderstandings and miscommunication of the requirements caused the data to
be inaccurate is not consistent with the results of the review. The Defense
Finance and Accounting Service retains information supporting payroll that is
constantly changing. To extract the data requires programmers to develop a
query that ignores changes, which can take weeks or months to provide results.
The Defense Finance and Accounting Service’s explanation that
misunderstandings or miscommunication caused the payroll data to be inaccurate
obscures the difficulty of accurately supporting the detail of a payroll
withholding report prepared from a previous version of a database. The
database used ignores the requirement in the DoD Financial Management
Regulation to maintain an audit trail to permit the tracing of transactions through
the payroll system, because summary amounts cannot be readily traced to the
individual transaction.

The Defense Finance and Accounting Service provided management comments
on April 12, 2000, that we included in Inspector General, DoD, Report
No. D-2000-156, “DoD Payroll Withholding Data for FY 1999,” June 29,
2000. The Defense Finance and Accounting Service commented that the data
extraction query requirements would be refined and in place for future audits.
However, the Defense Finance and Accounting Service did not develop an
accurate and timely data extraction query, so the subsequent data files were not
available in time to meet our payroll audit required by Office of Management
and Budget Bulletin 01-02 for FY 2000. Even though data supporting payroll
withholding reports were originally requested in 1999 for an annual audit
requirement, the Defense Finance and Accounting Service provided amounts in
its recent data file in support of Federal employee health benefits that disagreed
with payroll withholding reports by $36,754. The Defense Finance and
Accounting Service has significantly improved its accuracy to arrive at a
potential reconciliation, but it has occurred during our three requests and
required approximately 19 weeks for them to respond. These 19 weeks have
required programmers time to extract what we anticipated would be readily
available and accurate. Even after our three requests for data, the Defense
Finance and Accounting Service has still not developed a capability to provide
exact support for the amounts it reports to the Office of Personnel Management.
We request that the Director, Defense Finance and Accounting Service,
comment on this revised final report recommendation.



                                     7
3. Develop and provide the information system capability to support and
justify adjustments to payroll records, including dollar amounts and dates
of the adjustments, and provide an audit trail to the source transactions
that required the adjustment. Provide a reconciliation to the differences we
noted in Inspector General, DoD, Report No. D-2000-156, “DoD Payroll
Withholding Data for FY 1999,” June 29, 2000 and this report to confirm
an audit trail exists.

Management Comments. Defense Finance and Accounting Service
nonconcurred with the draft report recommendation and stated that the Defense
Civilian Pay System currently provides audit trail information, which identifies
the source of the adjustment and includes the dollar value and date of the
adjustment. Some of this information is in the Master Employee History
records that are retained for approximately one year as described in management
comments concerning Recommendation 1. Additional information concerning
adjustment records is captured on reports provided to the payroll office for
review and retention. The Master Employee Add/Change/Delete Report and the
Adjustment of Hours and Amounts Report can be used to determine the source
of an adjustment.

Audit Response. The Defense Finance and Accounting Service could not
provide us with accurate detail to support the payroll withholding reports it sent
to the Office of Personnel Management. Although the Defense Finance and
Accounting Service has identified audit trail information for adjustments to
payroll records for individual civilian employees, it has not identified audit trail
information for adjustments to payroll records that would affect payroll
withholding reports. When the Defense Finance and Accounting Service
provided database files that did not total to the payroll withholding amounts
reported to the Office of Personnel Management during the audit of DoD
Payroll Withholding Data for FY 1999, they explained that the differences were
due in part to retroactive changes to its payroll records. At that time, we
discussed alternative systems with the Defense Finance and Accounting Service
payroll personnel and agreed to recommend an improved capability to provide
exact data supporting payroll withholding. In order to provide exact data
supporting payroll withholding, the Defense Finance and Accounting Service
needed to develop the capability to provide support for the amounts reported to
the Office of Personnel Management in payroll withholding reports, excluding
retroactive adjustments and other changes. For FY 2000, we have subsequently
requested data supporting amounts reported to the Office of Personnel
Management in payroll withholding reports, and the Defense Finance and
Accounting Service has not been able to provide exact detailed support for all of
the amounts reported. The Defense Finance and Accounting Service needs to
determine how adjustments to its payroll database affect the amounts reported to
the Office of Personnel Management in payroll withholding reports and to have
a capability to identify and summarize those adjustments for each payroll
withholding report.

According to the agreed-upon procedures in Office of Management and Budget
Bulletin 01-02, “Audits of Federal Financial Statements,” October 16, 2000, all
of the differences between the payroll register databases and the amounts
reported to the Office of Personnel Management are to be reconciled and
                                     8
explained. The Defense Finance and Accounting Service should provide a
reconciliation to the differences we noted in our FY 1999 and FY 2000 reports
in order to support their contention that they have an adequate audit trail that
provides those details with the existing systems they have in place. We request
that the Director, Defense Finance and Accounting Service, provide comments
on this revised final report recommendation.




                                    9
Appendix A. Audit Process

Scope
    We reviewed the data and documentation supporting the $2 billion in payroll
    withholding reported during each year by DFAS to OPM for DoD civilian
    personnel. The total annual payroll for 690,000 DoD civilian employees is
    $37.9 billion. We selected for review the payroll files and supporting
    documentation for the payroll periods that ended January 29, 2000;
    February 26, 2000; and April 22, 2000, from the computer-processed data in
    the DFAS payroll history database. The DFAS payroll history database did not
    support the amount of DoD payroll withholding reported to OPM, and we made
    recommendations addressing this deficiency for FY 1999 in Inspector General,
    DoD, Report No. D2000-156 issued June 29, 2000. We found the DFAS
    payroll history database was usable for audit purposes for individual audit
    sample items we selected. We also reviewed DoD plans and actions to automate
    and use electronic media to record DoD civilian personnel withholding
    elections.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2) FY 2001 Subordinate Performance
    Goal 2.5: Improve DoD financial and information management. (01-DoD-2.5)
    FY 2001 Performance Measure 2.5.2 Achieve unqualified opinions on
    financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           • Financial Management Objective: Strengthen internal controls.
             Goal: Improve compliance with the Federal Managers’ Financial
             Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

                                       10
    Audit Type, Dates, and Standards. We performed this financial-related audit
    from April through December 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and the Office of Personnel Management. Further
    details are available upon request.

Methodology
    We reviewed data and documentation supporting gross pay and payroll
    withholdings reported by DFAS to OPM. We also reviewed internal controls
    over the reporting process, including whether DFAS could provide subsidiary
    payroll withholding records that totaled the amounts reported for payroll
    withholding to OPM. We electronically obtained the payroll data files from the
    payroll history database at Pensacola by a file transfer procedure from DFAS.
    We independently totaled the 24 payroll data files (the 8 payroll offices with
    more than 30,000 employees each for 3 pay periods). The data files represent
    about 600,000 employees for each pay period. We compared the totals of each
    payroll data file with the amounts reported to OPM through the RITS on
    Form 2812. For the three pay periods selected, we compared the total of the
    total column on the Forms 2812 with the actual amount transferred.

    Computer-Processed Data. We did not evaluate the general and application
    controls of the Defense Civilian Pay System that processes payroll data,
    although we did rely on data produced by that system to conduct the audit. We
    did not evaluate the controls because we determined data reliability by adding
    the data provided to us from the system and comparing the totals to summary
    documents previously prepared from data in the system. Not evaluating the
    controls did not affect the results of the audit.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996 and DoD Instruction 5010.40, “Management Control Program
    Procedures,” August 28, 1996, require DoD managers to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of those controls.

    Scope of Review of Management Control Program. We reviewed the annual
    statement of assurance by DFAS for FY 1999. We reviewed the report to
    determine whether it disclosed the lack of software capable of extracting exact
    details in the electronic payroll data summarized and transmitted to OPM for
    withholding payments.


                                       11
    Adequacy of Management Controls. We identified a material management
    control weakness, as defined by DoD Instruction 5010.40. DFAS did not have
    the software capability to extract exact details in the electronic payroll data
    summarized and transmitted to OPM for withholding payments.
    Recommendations 1. and 2., in this report, if implemented, will improve the
    accuracy of database support for the amounts that DFAS summarizes to report
    to OPM.

    Adequacy of Management’s Self-Evaluation. Management’s self-evaluation
    did not identify the material weakness because management did not identify the
    area as an assessable unit. In addition, the DFAS management letter of
    assurance did not identify the material management control weakness because a
    prior review of DoD payroll withholding data, performed by a contractor,
    omitted some of the agreed-upon procedures, and therefore, did not disclose the
    weakness.

    Management Comments on Control Program Review. Defense Finance and
    Accounting Services disagreed that it had a material management control
    weakness. The Defense Finance and Accounting Service stated that after a
    review of the audit requirements, a second data file was created that contained
    accurate, supportable data. However, the Defense Finance and Accounting
    Service added that it is exploring an alternative method of data storage or
    retrieval. This requirement is being driven by a soon to be implemented system
    change which will allow the mechanized transfer of employee data, including
    history data, between databases. This mingling of history data will negatively
    affect the ability to provide accurate detail data to support the summary data
    reported to OPM. A System Change Request is being written to develop an
    alternative methodology to accomplish this requirement.

    Audit Response. An audit trail from summary payroll withholding reports
    submitted to OPM to the detail in the DFAS database from which those reports
    were summarized is essential to safeguard the accuracy. The Regulation,
    volume 8, chapter 1, August 1999, states that DoD payroll operations and
    systems shall have audit trails to permit the tracing of transactions through the
    payroll system. The inability of Defense Finance and Accounting Service to
    provide an audit trail from summary withholding reports to OPM to the detail in
    the database is a significant deficiency, and therefore, a material management
    control weakness.

Prior Coverage
    The Inspector General, DoD, and the Air Force Audit Agency have conducted
    multiple reviews related to civilian payroll information, controls over the payroll
    process, and payroll expenses. Unrestricted Inspector General, DoD, reports
    can be accessed on the Internet at www.dodig.osd.mil. Unrestricted Air Force
    Audit Agency reports can be accessed on the Internet at www.afaa.hq.af.mil.




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Civilian Personnel Management Service

Non-Defense Federal Organizations
Office of Management and Budget
Office of Personnel Management




                                           13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         14
Defense Finance and Accounting Service
Comments

                                         Final Report
                                          Reference




                                         (not included)




                   15
Final Report
 Reference




Revised




Revised




(not included)




                 16
     Final Report
      Reference




     Revised




     Pages 10-11




17
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
David F. Vincent
Thomas J. Winter
Joseph A. Powell
Jonathan M. Rabben
Lisa Y. Johnson
Alberto T. Rodriguez
Fred R. McComas
Stephen Wynne
